December 20, 2019
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-402, Howard L. Baldwin & Karen E. Baldwin v.
United States of America
Petitioners’ Reply Brief
CERTIFICATE OF SERVICE

Dear Mr. Harris:
I, Aditya Dynar, counsel for Petitioners, do hereby declare that on December 20,
2019, as required by Supreme Court Rule 29.5, I have served by first-class mail, postage
pre-paid, the Petitioners’ Reply Brief on counsel for each party to the above proceeding.
All parties required to be served have been served as per the attached Service List.
Executed on December 20, 2019.

Aditya Dynar
Counsel for Petitioners

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

NCLA
Page 2 of 2

SERVICE LIST
Counsel for Petitioners:
Robert W. Keaster
Chamberlin & Keaster LLP
16000 Ventura Blvd., Suite 301
Encino, CA 91436
Philip Hamburger
Mark Chenoweth
Aditya Dynar
Counsel of record
New Civil Liberties Alliance
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210 | Adi.Dynar@NCLA.onmicrosoft.com
Counsel for Respondent:
Noel J. Francisco
Counsel of record
Richard Zuckerman
Joan I. Oppenheimer
Nathaniel S. Pollock
U.S. Department of Justice
950 Pennsylvania Ave. NW
Washington, DC 20530
(202) 514-2217 | SupremeCtBriefs@usdoj.gov

